<html>
<title> - TRANSPORTATION PLANNING</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                          TRANSPORTATION PLANNING

=======================================================================


                               (110-170)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 18, 2008

                               __________

                       Printed for the use of the


                  U.S. GOVERNMENT PRINTING OFFICE
45-109                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             Committee on Transportation and Infrastructure



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ARCURI, New York          JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee               ROBERT E. LATTA, Ohio
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland

                                  (ii)



                  SUBCOMMITTEE ON HIGHWAYS AND TRANSIT

                   PETER A. DeFAZIO, Oregon, Chairman

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
ELLEN O. TAUSCHER, California        THOMAS E. PETRI, Wisconsin
TIM HOLDEN, Pennsylvania             HOWARD COBLE, North Carolina
MICHAEL E. CAPUANO, Massachusetts    GARY G. MILLER, California
TIMOTHY H. BISHOP, New York          ROBIN HAYES, North Carolina
MICHAEL H. MICHAUD, Maine            HENRY E. BROWN, Jr., South 
BRIAN HIGGINS, New York              Carolina
GRACE F. NAPOLITANO, California      TIMOTHY V. JOHNSON, Illinois
MAZIE K. HIRONO, Hawaii              TODD RUSSELL PLATTS, Pennsylvania
JASON ALTMIRE, Pennsylvania          JOHN BOOZMAN, Arkansas
TIMOTHY J. WALZ, Minnesota           SHELLEY MOORE CAPITO, West 
HEATH SHULER, North Carolina         Virginia
MICHAEL A ARCURI, New York           JIM GERLACH, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  MARIO DIAZ-BALART, Florida
JERRY McNERNEY, California           CHARLES W. DENT, Pennsylvania
BOB FILNER, California               TED POE, Texas
ELIJAH E. CUMMINGS, Maryland         DAVID G. REICHERT, Washington
BRIAN BAIRD, Washington              CHARLES W. BOUSTANY, Jr., 
DANIEL LIPINSKI, Illinois            Louisiana
STEVE COHEN, Tennessee               JEAN SCHMIDT, Ohio
ZACHARY T. SPACE, Ohio               CANDICE S. MILLER, Michigan
BRUCE L. BRALEY, Iowa, Vice Chair    THELMA D. DRAKE, Virginia
HARRY E. MITCHELL, Arizona           MARY FALLIN, Oklahoma
LAURA A. RICHARDSON, California      VERN BUCHANAN, Florida
ALBIO SIRES, New Jersey              ROBERT E. LATTA, Ohio
DONNA F. EDWARDS, Maryland           JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (Ex Officio)
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Chesley, Andrew, Executive Director, San Joaquin Council of 
  Governments, Stockton, California..............................     5
Hickenlooper, Hon. John W., Mayor, Denver, Colorado..............     5
Howard, Charles, Transportation Planning Director, Puget Sound 
  Regional Council, Seattle, Washington..........................     5
Pedersen, Neil, Chair, Executive Board, I-95 Coalition, 
  Baltimore, Maryland............................................     5
Ritzman, James, Deputy Secretary for Transportation Planning, 
  Pennsylvania Department of Transportation......................     5
Selman, Keith, AICP, Planning Director, City of Laredo, Texas....     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    34
DeFazio, Hon. Peter A., of Oregon................................    35
Mitchell, Hon. Harry E., of Arizona..............................    36
Oberstar, Hon. James L., of Minnesota............................    37
Richardson, Hon. Laura A., of California.........................    42

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Chesley, Andrew..................................................    49
Hickenlooper, Hon. John W........................................    54
Howard, Charles..................................................    76
Pedersen, Neil...................................................    89
Ritzman, James...................................................   117
Selman, Keith....................................................   181

                       SUBMISSIONS FOR THE RECORD

Napolitano, Hon. Grace F., a Representative in Congress from the 
  State of California:

  Alameda Corridor-East Construction Authority, Rick Richmond, 
    Chief Executive Officer, letter to Rep. Napolitano...........    45
  Gateway Cities Coalition of Government, Richard Powers, 
    Executive Director, suggested comments on hearing supplied to 
    Rep. Napolitano..............................................    47
Pedersen, Neil, Chair, Executive Board, I-95 Coalition, 
  Baltimore, Maryland, responses to questions from Rep. DeFazio..   107
Ritzman, James, Deputy Secretary for Transportation Planning, 
  Pennsylvania Department of Transportation, responses to 
  questions from the Subcommittee................................   174
Selman, Keith, AICP, Planning Director, City of Laredo, Texas, 
  responses to questions from the Subcommittee...................   182


[GRAPHIC] [TIFF OMITTED] 45109.001

[GRAPHIC] [TIFF OMITTED] 45109.002

[GRAPHIC] [TIFF OMITTED] 45109.003

[GRAPHIC] [TIFF OMITTED] 45109.004

[GRAPHIC] [TIFF OMITTED] 45109.005

[GRAPHIC] [TIFF OMITTED] 45109.006

[GRAPHIC] [TIFF OMITTED] 45109.007



                   HEARING ON TRANSPORTATION PLANNING

                              ----------                              


                     Thursday, September 18, 2008,

             U.S. House of Representatives,
    Committee on Transportation and Infrastructure,
                      Subcommittee on Highways and Transit,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:00 a.m. in 
room 2167, Rayburn House Office Building, the Honorable Jerry 
McNerney presiding.
    Mr. McNerney. The Subcommittee will come to order.
    I want to start out by thanking Chairman DeFazio and 
Ranking Member Duncan for holding this hearing on 
transportation planning and for asking me to Chair today's 
session on behalf of Chairman DeFazio.
    Transportation planning has a profound effect not only on 
our infrastructure, but also on our travel behaviors, the 
economic development of our communities, and on our quality of 
life. It is an issue that this Committee will be closely 
examining during the authorization of the next transportation 
bill which is coming up in 2009.
    Congress created the metropolitan transportation planning 
process 46 years ago, and much has changed in our metro areas 
since that time. State departments of transportation, the State 
DOTs, and the metropolitan transportation organizations, the 
MPOs, are the two entities that were required by law to conduct 
transportation planning. In 1991 Congress created State-wide 
transportation planning procedures and the Federal funding 
mechanisms that are still used today.
    These important planning processes provide the context for 
reconciling State and regional transportation needs and the 
Federal transportation goals with proposed transportation 
projects and activities. That is why I am particularly pleased 
that Andy Chesley from the San Joaquin Council of Governments 
is testifying before the audience today. Since I came to 
Congress, Andy and I have worked together on a number of 
important transportation projects in and around California's 
Central Valley, and I know first-hand that Andy is a strong 
advocate for our region, but he also knows that we need to 
think and plan on a large scale, with input from everybody at 
all scales of government.
    My District, which includes part of the San Francisco Bay 
area and a significant portion of the Central Valley, is really 
a microcosm of the national transportation system. We have 
cities, we have growing suburbs, small towns, rural 
communities, which are supported by a deep-water port, an aging 
highway system, and a freight network that also serves as a 
commuter rail and needs upgrading. The challenges we face 
regionally are the challenges we face nationally, but I am 
confident that we can find the solutions.
    Today's hearing will focus on four key challenges to 
current transportation planning requirements. First of all, how 
to better plan the movement of freight. Secondly, how do we 
enable the States and the MPOs to incorporate regional and 
national priorities into their plans. Third, how to better 
integrate land use decisions with transportation improvements. 
That is a new subject. And how to establish performance 
measures for transportation planning processes.
    In order to examine these issues in greater detail, today's 
hearing will be conducted on a modified format. Witnesses will 
not be asked to give a five-minute opening statement, but 
rather just to introduce themselves. After the Ranking Member 
and the Chair, witnesses will be asked to make short 
introductions. We will immediately proceed to questions.
    It is our hope that this new format will allow Members and 
witnesses to delve into the issues and will encourage a full 
discussion and dialogue.
    Thank you.
    I will now turn to the Ranking Member, Mr. Duncan from 
Tennessee, for his opening remarks.
    Mr. Duncan. Thank you, Chairman McNerney. Welcome to your 
new position here in place of Chairman DeFazio, at least for 
the time being.
    Today's hearing on transportation planning comes at a very 
critical time for the transportation community. In a little 
over a year, the existing highway transit and highway safety 
programs will expire. Of course, almost everyone knows that the 
next highway bill will be one of the biggest bills, perhaps 
even the biggest bill, in the next Congress.
    The information we gather today from the hearing will help 
this Committee determine what the highway and transit planning 
requirements will look like in the next surface transportation 
authorization bill. While all of us on this Committee spend a 
little more time on these issues than most Members, still, we 
have to deal with a thousand other things and so many other 
issues that we are not the experts that we have here on the 
panel today, and so we certainly need their expertise and their 
input here today.
    The transportation planning process involves more than just 
listing highways and transit projects in a State or 
metropolitan area. The planning process involves collecting 
input from all users of the transportation system, including 
the business community, community groups, environmental 
organizations, the traveling public, and freight operators, in 
making decisions to promote transportation projects that 
advance the long-term goals of the State or local community.
    Requirements for transportation planning in metropolitan 
areas and at the State level have been a part of Federal 
highway and transit laws since the 1960s; however, there are no 
requirements to look at transportation planning from a regional 
or a national perspective, and that certainly is what we need 
to start doing more. This is one of the reasons that our 
Ranking Member, Congressman Mica, has called for a national 
transportation strategic plan. A national transportation plan 
will allow us to look beyond State borders and local political 
jurisdictions to evaluate the impacts that transportation 
projects have on different regions of the Country, and in some 
cases the entire Nation.
    I read recently that two-thirds of the counties in the U.S. 
are losing population. That really surprises people in my area, 
because the metropolitan area around Knoxville is one of the 
really fast-growth areas in this Country. So we need to funnel 
probably more resources and funding to the metropolitan areas, 
and particular the fastest-growing metropolitan areas, but we 
also need to do more to encourage people to live in and visit 
the small towns and the rural areas that are losing populations 
and are having economic problems because of that.
    In addition, we have two interstates that meet in Knoxville 
and a third that comes 37 miles outside of town, so we have 
millions of people coming through our area each year, many 
millions, but they drive through those small towns and rural 
areas on their way to and from Tennessee and coming to and from 
Florida and so forth, so we can't ignore the needs of the small 
towns and rural areas either. So we have some difficult 
decisions to make and choices to make in the next Congress. I 
know that you all will help us to the extent that you can.
    As I understand, Chairman DeFazio has suggested that the 
witnesses primarily introduce themselves and try to avoid 
reading the lengthy statements that we have gotten from some 
witnesses, but I do hope that, in addition to introducing 
yourselves, you will at least take a couple of minutes to tell 
us what your major concerns are or your suggestions are, and 
then we can get into it a little more deeply on the question 
and answer portion.
    Mr. McNerney. The Chair now recognizes the distinguished 
gentleman from Florida, Mr. Mica, for an opening statement.
    Mr. Mica. Thank you so much for yielding for just a minute. 
I will try to be brief.
    I appreciate the leadership shown on both sides of the 
aisle in calling this hearing. I think this is very important, 
and particularly as we start out now. We are not quite taking 
on the successor to SAFETEA-LU, but we are starting to talk 
about important processes in transportation, and certainly 
planning is absolutely critical to the entire process.
    As you heard our Ranking Member, Mr. Duncan, mentioned, I 
have proposed a national strategic transportation plan. Having 
served on the Committee now for almost 16 years, it is amazing 
from my vantage point--and I know Mr. Oberstar has also come to 
this conclusion--that we don't have a national strategic 
transportation and infrastructure plan. I mean, how could you 
go about anything in business or undertake any enterprise 
without a good plan? Most of our States and some of our 
metropolitan areas have set forth pretty good plans, but we 
don't look at this in the whole.
    I think it is absolutely essential that we develop that as 
part of our reauthorization. The key element, of course, in the 
planning process is, again, looking at the whole Country, 
setting our policies, our projects, and our priorities, and 
also doing that sort of from the bottom up. You all have your 
planning process. We need to incorporate our national plan that 
takes elements of that and prioritizes it, sets the policy by 
which we will partner with you, but until we do that we are 
sort of meandering, and we have done that for a number of 
years.
    Just a couple of quick points before I close. Also in the 
planning process there are some issues that I have witnessed 
first-hand, and some of you may have had to deal with this. Our 
MPOs and some of our structures do not take into consideration 
the huge metropolitan areas that some of our planning must 
encompass, and I have areas where we have MPOs backing up to 
other MPOs and sometimes not talking. Now, some of the 
communication has improved, but we may need to look at that 
structure and the ability for better cooperation and better 
coverage in some of these metropolitan areas rather than being 
so split and divided. So if we come down a tier from the 
national level, we have to look at the MPO process level and 
improve that. I would love to hear your recommendations in that 
regard.
    There is a whole host of policy issues that also will help 
us with planning. Of course, we have got the big finance issue 
to resolve. But there are issues about investments, public/
private partnerships that also can help you in your process. If 
that is defined by the Federal Government, the terms by which 
everybody can participate in this process, I think you can also 
move projects forward.
    The final element is actually speeding up the process. I 
think today is the day that they are opening the I-35 bridge 
over the Mississippi in Minneapolis that collapsed about a year 
ago, done on schedule, actually ahead of schedule and under 
budget, done in 437 days or less. The normal process would take 
seven to eight years to complete that.
    If you are involved in the planning process, sometimes the 
local governments change, the players change, some of the 
projects get shelved or put behind because of politics. But you 
can't proceed in planning or executing projects if the process 
takes so long, and that is something else I would like to see 
us do and hear your recommendations on.
    But if we can do the I-35 bridge in record time, not 
substantially changing the footprint of a project, there is no 
reason why we can't do other projects in an expedited fashion.
    I look forward to working with all of you as you come 
forward with your recommendations.
    Thanks again. I yield back.
    Mr. McNerney. Well, I thank the Ranking Member of the 
Transportation and Infrastructure Committee for your thoughtful 
remarks.
    Transportation is a complicated issue, and I think we can 
all learn from each other. The point of this hearing really is 
to allow the witnesses an opportunity to instruct us on what 
would be more useful, what would be the most useful way to 
proceed. We need your inputs on making this process work for 
the 2009 authorization.
    Next I would like to recognize the gentleman from 
Pennsylvania for his introduction of one of our witnesses.
    Mr. Holden. Thank you, Mr. Chairman. I would like to 
welcome all of our witnesses today, but particularly Mr. Jim 
Ritzman from the Pennsylvania Department of Transportation. Jim 
is the Deputy Secretary for Planning for Penn-DOT, and that is 
a very challenging job. As Members of this Committee have heard 
me say many times, Pennsylvania has more road miles to maintain 
than New York, New Jersey, and New England combined, but Jim 
and Secretary Biehler have been doing a great job with the 
limited resources.
    I would like to welcome Jim and all of our panelists today. 
I look forward to their testimony.
    Thank you, Mr. Chairman.
    Mr. McNerney. Thank you, Mr. Holden.
    Now we would like to allow each of the witnesses a minute 
or two to introduce yourselves. If you have specific issues 
that you want to bring up briefly, then we will turn to 
questions and answers. I would like to start with Mayor 
Hickenlooper. Thank you.

TESTIMONY OF THE HONORABLE JOHN W. HICKENLOOPER, MAYOR, DENVER, 
   COLORADO; ANDREW CHESLEY, EXECUTIVE DIRECTOR, SAN JOAQUIN 
 COUNCIL OF GOVERNMENTS, STOCKTON, CALIFORNIA; CHARLES HOWARD, 
TRANSPORTATION PLANNING DIRECTOR, PUGET SOUND REGIONAL COUNCIL, 
  SEATTLE, WASHINGTON; KEITH SELMAN, AICP, PLANNING DIRECTOR, 
  CITY OF LAREDO, TEXAS; JAMES RITZMAN, DEPUTY SECRETARY FOR 
      TRANSPORTATION PLANNING, PENNSYLVANIA DEPARTMENT OF 
TRANSPORTATION; AND NEIL PEDERSEN, CHAIR, EXECUTIVE BOARD, I-95 
                 COALITION, BALTIMORE, MARYLAND

    Mr. Hickenlooper. You should have heard what they did to my 
name as I grew up throughout childhood.
    I am the mayor of Denver in Colorado. I am very grateful, 
Chairman McNerney, to be here, and to the Members of the 
Subcommittee, thank you for inviting me to testify.
    Certainly, although planning is a concept that, as a topic, 
doesn't really excite the passions of our citizens, often the 
results of planning do excite those passions.
    As mayor of Denver and as someone who, before I ran for 
office five years ago, was a real estate developer, developed a 
number of housing and restaurants in the downtown area in the 
metropolitan area, I realize that what we are about now is 
creating a model of regional collaboration, and if these models 
are going to succeed on a national level they need support of 
the Federal Government.
    In the next 25 years, Denver's metropolitan population is 
going to come close to four million people, and what we have 
done again and again, whether you are talking about our fast 
tracks transit project or our regional economic development 
initiative, we have a regional cultural facilities tax, but 
each of these are models on what we used to refer to as 
unnatural acts between consenting adults. These are elected 
leaders from different parts of our metropolitan area looking 
at broader self-interest and finding ways that they can work 
together.
    I also appear today as the chair of the U.S. Conference of 
Mayors Transportation and Communications Committee.
    Mr. McNerney. Thank you, Mayor.
    Next I would like to have Mr. Ritzman introduce himself, 
even though he has been also already recognized by one of our 
Members of the Committee.
    Mr. Ritzman?
    Mr. Ritzman. Good morning. Thank you so much for the kind 
introduction, Congressman Holden.
    I, too, am thrilled to be here this morning and just to 
share some perspective from Pennsylvania. I am the Deputy 
Secretary for Planning in Pennsylvania, but I come from a 
background of transportation roles in highway safety, design, 
and construction, as well as planning, so a real focus area 
that I would want to share today further on is sometimes 
planning gets lost in the shuffle and only becomes a book on 
somebody's shelf somewhere or a study. What we ultimately need 
to do is make sure and ensure that the planning activities that 
we do really do lead to that project delivery efficiencies and 
program delivery efficiencies.
    Mr. McNerney. Thank you, Mr. Ritzman.
    Next we have Mr. Howard from the Puget Sound area. This is 
a very complicated transportation region because it includes so 
much waterways, airways, and not to mention surface 
transportation.
    Mr. Howard?
    Mr. Howard. Thank you, Mr. Chairman.
    My name is Charlie Howard. I am the Transportation Planning 
Director of the Puget Sound Regional Council, and that 
organization is a metropolitan planning organization for four 
counties in Washington State, which includes central Seattle 
but also includes vibrant suburbs all the way to working 
forests, mountains, farmland. So we encompass quite a wide 
area.
    One thing, I would share Mr. Ritzman's view that, while we 
are pretty successful in developing plans in our region, what 
we really view as success is actually implementing those plans, 
and so that is really paramount in our interest as to how we 
can make sure that our plans are delivering projects and 
transportation services that serve our public.
    Thank you.
    Mr. McNerney. Thank you, Mr. Howard.
    Next is a gentleman who I have had the pleasure of working 
with in my District. I know that he is feared and respected 
throughout the region. Mr. Chesley?
    Mr. Chesley. You are very kind, Chairman McNerney. Thank 
you very much.
    My name is Andrew Chesley. I am the Executive Director for 
the San Joaquin Council of Governments in Stockton, California. 
I look forward to speaking on behalf of the National 
Association of Regional Councils here and the role that 
metropolitan planning organizations have played in successfully 
delivery transportation projects and some of the challenges 
that we are facing as we move forward in terms of making our 
transportation system more successful in the future, 
particularly in areas dealing with situations such as 
greenhouse gas emissions, a new area for us in terms of 
tackling transportation in the future, and it is going to call 
upon us to use new tools, new partners as we move into a better 
transportation planning process and better transportation 
system.
    Thank you for inviting me and having me here.
    Mr. McNerney. Thank you, Mr. Chesley.
    Next we have Mr. Selman from Laredo, Texas, who has his own 
special considerations regarding border crossing.
    Mr. Selman?
    Mr. Selman. Thank you, Mr. Chairman. I am Keith Selman. I 
am the Planning Director and the MPO director for a small MPO 
in Laredo, Texas. We have a city population in the last census 
of about 175,000. Right now our population estimates are about 
2.25. We expect that number to increase by the next census.
    We are the largest inland port on the border between the 
United States and Mexico. We have over $347 billion in commerce 
crossing the U.S.-Mexican border on an annual basis. We are 
dealing with the whole gauntlet. We deal with rail, we deal 
with trucks--10,000 trucks a day crossing our international 
bridges. We have four international bridges, five if you 
include the railroad bridge that is owned by Kansas City 
Southern. We have two commuter bridges and two bridges solely 
committed to the movement of commerce.
    Mr. McNerney. Thank you, Mr. Selman.
    Next we have Mr. Pedersen, who is going to discuss the I-95 
corridor.
    Mr. Pedersen. Thank you, Mr. Chairman. My name is Neil 
Pedersen. In addition to being Chair of the Executive Board of 
the I-95 Corridor Coalition, I serve as the Administrator of 
the Maryland State Highway Administration. I am a constituent 
of your newest Member, Congresswoman Edwards. I am also very 
active in the American Association of State Highway 
Transportation Officials Policy Development Authorization 
Committees and can speak about some issues from that 
perspective, as well.
    The I-95 Corridor Coalition is a coalition of 16 States 
along the eastern seaboard, and we are addressing a number of 
multi-State issues from both an operations perspective, as well 
as from a planning perspective. We have undertaken a vision 
study for the 16-State corridor. I think a number of the 
lessons that we have learned at looking at issues from a multi-
State perspective I think are very appropro for the hearing 
this morning.
    Thank you.
    Mr. McNerney. Thank you, Mr. Pedersen.
    Next we will begin with our questions. The Chair will 
recognize himself for five minutes.
    Congress requires that Federally funded highway and transit 
projects just flow from metropolitan and State-wide 
transportation planning processes. I would like to ask Mr. 
Hickenlooper what ways have transportation planning 
requirements been helpful and what ways have they been a 
hinderance in your transportation planning?
    Mr. Hickenlooper. Certainly the current transportation 
framework acknowledges the importance of metropolitan scale and 
mobility issues, but it doesn't really motivate or support the 
metropolitan based transportation solutions that would be led 
by the various elected officials I was referring to in our 
collaborative processes. I think the key here is that our 
planning processes in metro areas, they are only going to be 
meaningful if the resources to implement the plan are connected 
to the body that is making the plan, as well.
    In most metro areas, local officials are never afforded the 
opportunity to control or substantially influence how the bulk 
of the Federal resources are expanded in our region. If you 
look at the relative weight in a metropolitan area versus the 
rest of the State, we have in metropolitan Denver, of the $438 
million in spending authority under the core highway program 
categories in Colorado last year, only $54 million out of that 
$438 million, so roughly 12.5 percent, is directly controlled 
by the metro Denver planning processes, even though metro 
Denver represents roughly half of the State's population and 60 
percent of its economic output. So I think that disparity 
between the transit versus highway projects, ultimately it 
promotes, to the disadvantage of the entire area, it promotes 
road investments.
    Oftentimes the cost for planning the requirements in terms 
of matches, all these things are scaled in such a way to make 
it more difficult for more integrated solutions to get funded.
    So I think we would ask for a rigorous evaluation in 
matching rules to apply uniformly to highway and transit 
projects for both metropolitan and non-metropolitan so that we 
enable the planners to make decisions that are mode neutral, 
that are driven by merits and not differentially aligned 
incentives, and to make sure that those incentives are equal 
all the way along and that we make sure that we take advantage 
in terms of long-term investment of some of the asset rich 
already urbanized but metropolitan areas.
    Mr. McNerney. Thank you, Mr. Mayor.
    Mr. Pedersen, would you like to take a crack at that? What 
has been helpful and what has been a problem in the current 
framework?
    Mr. Pedersen. Having been Planning Director of Maryland 
State Highway Administration for 16 years, I go back to prior 
to ISTEA. ISTEA was really a watershed in terms of 
significantly increasing not just collaboration but partnership 
between the State DOTs and metropolitan areas and local 
jurisdictions. Quite frankly, from my perspective, observing 
perhaps all 50 States what has worked and what has not, it is 
where the true partnership and collaboration has developed, 
which was the spirit of ISTEA, that has been most successful.
    In terms of hindrances and where I believe the process has 
not worked as effectively, and it has been raised by several of 
the Members already, is that when we start to look at issues of 
true national interest, issues that are multi-State issues, 
particularly when you start looking at freight issues, the 
process as it has been set up primarily causes either States or 
metropolitan areas to primarily look at things from their 
interest, and we need to be revamping the process to really be 
looking much more at those issues that are of national 
interest, those projects that truly benefit and affect multiple 
States and the entire Nation as a whole.
    Mr. McNerney. Thank you. That sort of leads to another 
question I had. In the sense that freight from ports and from 
ports of entry and from centers go through localities that are 
required to make improvements in order to accommodate those, 
and also to put up with the impact of all this freight going 
through there, both on trains and on trucks. In what way do you 
see--anyone that wants to take this question--how do you see us 
managing the local jurisdiction influence on this planning 
process to accommodate that large increase in freight?
    Mr. Pedersen. Obviously I spoke earlier about partnership 
being necessary, and using the I-95 Corridor Coalition 
experience as a starting point for the discussion, the I-95 
Corridor Coalition is not just 16 State departments of 
transportation; we actually have 60 different transportation 
agencies, including a number of the different metropolitan 
planning organizations within the 16 States. You have to have 
the dialogue. There are joint analyses that are taking place 
and partnership in terms of decisions that are being made at 
all three levels of government--Federal, State, and local or 
metropolitan level of government--in terms of joint decision-
making that takes place.
    Ultimately, quite frankly, it takes leadership from the 
Federal level in terms of looking at the issues from a national 
perspective, but in dialogue and partnership with the States 
and the metropolitan areas.
    Mr. McNerney. Thank you.
    Mr. Selman, I think you want to have a chance here.
    Mr. Selman. Thank you, Mr. Chairman.
    First of all, I think the mayor is correct. Capitalizing 
the projects is key, and it was mentioned earlier the timing of 
a project. Time is money, and you can lose a lot of money by 
taking longer to do a project, millions of dollars, depending 
on the size of the project and the magnitude of the project.
    We feel that the CBI program that was initiated and the two 
programs, the coordinated borders that was created in SAFETEA-
LU. The formulas are sound, the mechanism is sound. Every 
dollar that you spend in a community that deals with this 
movement of commerce, you are facilitating that movement of 
commerce.
    Mr. McNerney. Thank you.
    Mr. Chesley?
    Mr. Chesley. Mr. Chairman, actually you are aware of this 
more than almost anybody. In San Joaquin County we consider the 
Port of Oakland just as important a port to us as the Port of 
Stockton, even though it may be located well outside of our 
regional boundaries, but when the container ship comes into the 
Port of Oakland, it unloads on the trucks, comes over into San 
Joaquin County where it is repackaged onto a train, and then 
shipped out from that. So intermodalism is a key really in 
terms of freight movement. We can see it in southern California 
as well as northern California.
    Local jurisdictions and regional agencies are prepared to 
address those kind of issues, but also our concern about 
mitigation-related issue such as grade-separated facilities, as 
well as being able to move vehicles in and out of communities 
in this way.
    What we did in northern California as a result of the trade 
corridor bond funding was to form a coalition with the 
Metropolitan Transportation Commission, the Sacramento Area 
Council of Governments, and the San Joaquin Valley in terms of 
setting priorities in terms of how to redistribute the 
component of the $2.1 billion that was going to northern 
California. We have prepared a joint set of agreements on 
projects that covered everything from the Donner Pass to the 
Martina Sub all the way down to a multi inter-modal facility in 
Kern County.
    This kind of cooperation between regional agencies in terms 
of trying to address those local impacts that come from maybe 
as far away as 350 miles from a port facility are, I think, the 
keys to successes, finding the right incentives for those 
agencies to work together.
    We had 23 counties team together on this one, and I think 
the amount of cooperation between us is really kind of a model 
that has been highlighted in the State of California's 
transportation planning effort.
    Mr. McNerney. Mr. Howard?
    Mr. Howard. Yes. Our ports of Tacoma and Seattle combined 
are about the third-largest port in the Country, and we serve 
not only the inland northwest but the midwest and really the 
rest of the Country. So several years ago we formed what was 
called the Fast Partnership, which, again, was benefitted by 
corridor and borders money that was available. We have 
leveraged that money cooperatively. We developed a list of 
projects that were needed not only to support and improve 
freight capacity, but to help the local communities take care 
of the effects on their communities.
    We have been able to leverage that money into about a $568 
million investment of both public and private dollars so that 
we can get that freight moving faster.
    Mr. McNerney. Thank you.
    Mr. Ritzman?
    Mr. Ritzman. Thank you.
    I have a couple comments, too. They just really fall into 
and almost address the first question, as well. Just the 
funding eligibles and the categories of funds I think is really 
important, especially when you are dealing with MPOs. In 
Pennsylvania the RPOs, we treat the rural side of things the 
same as an MPO. So when you are trying to explain and 
regionally come up with priorities, it gets very confusing 
unless you are a transportation professional who deals with it 
every day.
    So I would say some categories that are more simple, more 
broader-based are really key. Right now we are really 
challenged with our existing infrastructure, just maintaining 
our existing infrastructure, so whenever you pull in potential 
projects that I will say have a concern of a private nature as 
well as a public entity, it gets a little bit tricky when you 
are trying to come up with priorities.
    Mr. McNerney. Thank you.
    It sounds like cooperation and communication are the key 
here.
    What I would like to do now is recognize the Ranking 
Member.
    Mr. Duncan. I want to yield my time at this point to 
Ranking Member Mica.
    Mr. Mica. I will just ask a couple of questions. We have 
got some real experts here from some of the States and locales 
that have had to deal with, again, the Federal planning process 
and funding, which is so key.
    In Pennsylvania you just got turned down, Mr. Ritzman, on 
your I-80 proposal to toll it. It makes it a little hard to 
plan when you really don't have a handle on Federal policy as 
to what you can do with existing interstates.
    Now, who is the guy from Baltimore? Mr. Pedersen? I can't 
pick Baltimore out, because whether it is Denver, Baltimore, or 
Pennsylvania, all of our interstates are basically parking lots 
turned into parking lots from Florida to Maine and across sea 
to shining sea. I challenge people to cover your eyes and say 
what's the plan, and nobody has a clue.
    God bless Eisenhower. He had a plan, proposed a half-
trillion-dollar system in 1954, when the Federal budget was $78 
billion, and I think we are going to have to have a mega plan 
to deal with this, unless somebody has got another idea.
    And then if we just define what the Federal Government 
would do and then come up with some mechanisms of financing or 
allow you to take the asset. This is an asset actually with 
some potential for income, unlike maybe some subprimes where 
people can't pay the debt, but you actually have some proposals 
that will return revenue, right? But you just got turned down?
    Mr. Pedersen. Correct. We have an outstanding bid for $12.8 
billion.
    Mr. Mica. That is on the Turnpike. Some States have acted. 
I know Mitch Daniels pretty well. He served up here when I was 
in the Senate with him, and he has worked on Indiana, and you 
can do things within your State with your State assets. But the 
problem is, again, the Federal asset, the Federal planning 
process, and assistance in being a partner. And then public/
private partnerships, some of the leadership of this committee 
sent out an edict to State DOT Secretaries--was that last 
year?--when they said, don't do anything that might not be in 
the public interest.
    I don't want to be critical, because there are people going 
in different directions, but if we just would define the policy 
and the projects and prioritize them.
    Am I smoking the funny weed, Mr. Pedersen? Is this a good 
approach? Give me an idea what we should do in the planning 
process?
    Mr. Pedersen. I think if you look at what the I-95 Corridor 
Coalition has been underway with for a year it serves as a 
prototype in terms of trying to address the issues that you are 
raising. We have been underway with a vision exercise and 
developing a vision for the corridor.
    Part of my experience in planning is it is the process of 
planning that is important, as important as ultimately what the 
outcome is. What we are doing in terms of that process is going 
through and analyzing what conditions can be expected to be in 
year 2040, so it is truly long-term, if it is business as usual 
without changes, and then what needs to be done in terms of 
intervention to try to not have some of the very, very serious 
impacts we would have.
    For example, we have projected, if it is business as usual, 
a 70 percent increase in vehicle miles of travel in the 16-
State corridor, an 84 percent increase in congestion, if you 
can believe that, over today's conditions in the urban areas 
within the corridor. And then started looking at interventions 
that need to be done in terms of whether it is land use, 
whether it is addressing freight issues, ways that we can be 
trying to increase passenger rail usage within the corridor and 
identifying what the 16 States need to do together from a 
vision standpoint in terms of trying to address from a long-
term perspective how to address what would be a totally 
unacceptable situation otherwise.
    Mr. Mica. One of the problems we have at the Federal level, 
and we have different jurisdiction niches, and the SAFETEA-LU 
successor is going to primarily handle highway and transit, but 
rail I have heard is also, both freight, passenger service, is 
also something that needs to be in the mix, and how it all fits 
together, or cost-effective alternatives to just paving 
everything over. We are going to have to do a lot more paving.
    Just two quick things. There is my proposal, and you can 
throw my proposal in the Potomac if you want. There is another 
proposal that we appoint a commission and study this and have 
the commission sort of study what would be the priorities. 
Quite frankly, I had thought of that approach, but then I 
thought, well, most of the people know what the problems are, 
most of the people know what the need is. It is for us to 
identify, again, the policy that will implement some of the 
projects, of course a financing mechanism, and then speeding up 
the process.
    But, again, I hope that some of you would weigh in against 
just another study commission with another report and that we 
do adopt a plan with these elements. You don't have to answer 
that. Just do what you want to do on it.
    I think those are the two points--bringing in the other 
modes, that we have got to do. I don't know how we do that with 
that, given our jurisdiction split, but I would appreciate if 
you see hope on the horizon.
    Mr. Oberstar is here, and he and I both pledged, I mean 
from the first day, he took over the shop and I am Tonto and he 
is the Lone Ranger, but we have committed to, no matter who is 
the President or who is in charge here, to move. The other 
thing is moving the damn bill forward next year, not a year and 
a half from next September. So we are going to do all we can. I 
know he is committed to it, and we are really going to rely on 
folks like you to weigh in on the process. Just don't stay out 
there and not comment.
    Mr. Pedersen. If I could respond again in terms of lessons 
learned from the I-95 Corridor Coalition, we have undertaken 
now studies in the Mid-Atlantic region, New England, the 
northeast region of our corridor, and the southeast region of 
our corridor, looking at freight rail issues, and what the 
issues are from a corridor-wide perspective, not from the 
perspective of any one individual State, and also started to 
look at what the benefits are of some of those needs that have 
been identified in terms of multi-State benefits.
    Some of the largest and most costly projects actually have 
greater benefits in the other States than in the State in which 
it is located. If the decisions are being made just a State or 
metropolitan level, they will be made in terms of the benefits 
to that State as opposed to from a corridor-wide perspective.
    Mr. Mica. I didn't want to interrupt, but I can solve 
Skagg's problem. I can come down to Florida, do a little in 
Florida, or we can do a little in Baltimore or a little in 
Texas, but unless there is a comprehensive approach to this, 
folks, we are just taking pinking shears around the edges.
    I am sorry I took so long, Mr. McNerney. Thank you.
    Mr. McNerney. Thank you for the questions, your thoughtful 
questions.
    The Transportation Committee has the honor of being one of 
the oldest and most distinguished committees, but also a 
Committee that operates on a very bipartisan basis. Because of 
the nature of the issues that we are facing, that is important, 
and it is an honor to be on this Committee. The Chairman of the 
Committee is here today. I would like to give him an 
opportunity to address the panel.
    Mr. Oberstar. Thank you, Mr. Chairman. Mr. Duncan, good to 
see you here, as always, the judge whose very thoughtful 
presence on these brings a great deal of experience on the 
Committee, having served as Subcommittee Chair and a previous 
Chair on two Subcommittees in the previous era. And Mr. Mica, 
with whom we have worked, he has served on this Committee since 
his first days in Congress. He was elected in 1992 and started 
here in 1993. I hadn't really thought about that image that he 
projected. I am not quite ready to see Mr. Mica on Paint or me 
on Silver.
    If there is a horse to ride, it is transportation. We have 
done good things since the beginning of this Congress. In fact, 
together with bipartisan support we passed the Water Resources 
Development Act that languished for six years, mostly because 
the other body couldn't get their act together. But in this 
Congress we not only moved it through Committee, 920 projects, 
through the House, and eventually the Senate did the same. When 
the President vetoed it, the House overrode that veto. To do 
that you need two-thirds vote. That shows what kind of 
bipartisanship we can get when we bring people together.
    That was kind of the planning process that you face. The 
purpose of MPOs should be to resolve differences at the 
community level. In 1962, in an era in the 1960s and the 1970s 
and into the mid-1980s when we didn't have fancy names for the 
legislation we passed, it was just simply The Highway Act. It 
later became the Surface Transportation Assistance Act. Then 
they got fancier with all these other acronyms. We need to 
return to those.
    But in 1962 in the Highway Bill metropolitan agencies were 
given the first authority to be engaged in the transportation 
planning process. Two years later in UMTA, the Urban Mass 
Transportation Act, MPOs were given authority to do planning on 
transit projects. In 1973, my last year as staff director of 
this Committee, we gave a directive to the States to allocate 
funds to MPOs to undertake the planning process. Sure, you had 
authority to do it, but you didn't have the money to do it.
    So now you have the authority for both highway and transit. 
MPOs have funding with which to engage in the planning process. 
But the money is decided by the State. A number of questions 
that I have for you. One is, to what extent do your State DOTs 
respectively respect, comply with, implement your TIP, your 
participation in the STIP, or your local metropolitan area 
plans?
    Second, do you use the planning process as a forum within 
which to resolve land use issues and the conflicts that arise 
out of transportation planning? If you can't resolve them, 
don't expect your Members of Congress to do it, your United 
States Senators, or the U.S. DOT, or your State DOT. You have 
got to do that.
    Then, for Seattle area, Mr. Howard, when the monorail 
project was alive and well I went out to Seattle to meet on a 
wide range of transportation issues, but that was one of them, 
and I was impressed with their project permitting procedure 
that held promise of compressing 45 months of permitting into 
45 weeks. We were working on the same concept in fashioning 
what became the SAFETEA-LU legislation. Then Chairman Young 
asked me to lead this effort and craft a permit expediting 
streamlining process. What I had in broad outline is what 
Seattle was, in fact, preparing to do had they been able to 
carry out the monorail.
    So now the question is, have you, in the Puget Sound area, 
applied the lessons learned from that aspect, that is the 
permitting? Have you had success in consolidating all the 
permitting entities into one group at one time with a 
horizontal approach rather than a vertical approach? In the 
past the model was that each agency had a crack at it 
sequentially. That stretched out and still does stretch out the 
permitting process over years rather than weeks. We can't have 
transit projects waiting 14 years on average before they 
actually deliver services to people. We can't have metropolitan 
areas redesigning their interstate system within the MPO and 
take ten years to do it. That is outrageous.
    Mr. Mica earlier--I heard while I was engaged in another 
meeting--referring to the I-35W bridge. Well, that was done in 
a matter of less than 12 months, actually. You can do them when 
you have got 100 percent Federal funding, when you don't have 
to do an environmental impact statement because you are in the 
same footprint as the previous bridge, when you don't need a 
slough of permits from Federal, State, county, township, city 
officials, and when you have the funding with which to provide 
incentives to the contractor to deliver the project ahead of 
time. That is nice formula, but we can't do that everywhere.
    All right. I have laid out some questions. I want to hear 
about permitting, I want to hear about connection with land 
use, I want to hear about the responsiveness of State DOTs to 
the local planning process, and whether not having the funds to 
implement makes a difference in your planning process.
    Mayor Hickenlooper, we had a great time in your city.
    Mr. Hickenlooper. Thank you, Congressman. We had a pretty 
good time, ourselves. We appreciate all that. It was a 
remarkable week.
    You know, if I could just touch on that a little bit, 
certainly in terms of the link between land use and 
transportation, and I think also the connection between the 
State Departments of Transportation and the local collaborative 
MPOs, the Federal Government can certainly play a stronger role 
in providing the incentives to make sure that that planning 
isn't just a plan that ends up on the shelf and that the 
planning incorporates approaches to land use.
    Again and again, whether you are talking about issues 
around land use or economic development, energy or 
environmental factors, most of those have local government 
authority over them, and that ability to integrate land use and 
energy and economic development, climate, these goals, putting 
them all together, is the natural purview of an MPO, and I 
don't think that metropolitan areas want to take away the power 
of State Departments of Transportation. I think what we want to 
do is make sure that everyone is working together and that we 
do have that collaborative approach.
    We spent an awful lot of time when we passed our fast 
tracks, which is 119 miles of new track, $4.7 billion transit 
initiative--I am sure you heard about it while you were out 
there. We ended up getting all 32 mayors in our metropolitan 
area--there are now 38. Municipalities keep springing up like 
mushrooms out there. But those 32 mayors from big cities and 
the small little towns, Republicans and Democrats, in the end 
we were able to get all 32 mayors unanimously to support a 4/
10ths of a cent sales tax increase to build this project fast 
tracks, and that took a remarkable amount of collaborative 
discussion about people's broader self interest. Even if a 
little town doesn't get a light rail segment that comes right 
into their town, their citizens still benefit by having the 
congestion mitigated, even though we still don't have a good 
performance measure of congestion mitigation or congestion.
    I think the Federal Government can play a real role by 
getting more of the allocation and authority within the local 
MPOs, within the local governments, that you can create an 
incentive whereby people are incentivized to collaborate. Same 
way that we should be doing our plannings around land use, we 
should also be looking at how can we make sure--the City of 
Denver is going to roll out a strategic transportation plan in 
the next month that is going to stress, instead of just 
measuring car trips, it is going to be really looking at person 
trips and all the different--whether it is by bus, by light 
rail, in a car, by bicycle, whether it is pedestrian.
    How do we look at each one of these as travelsheds, just 
like you would think about a watershed? What are we really 
trying to get to? What are the end results, whether it is land 
use or economic development? How do we get all these factors in 
a real, measurable way? That leads ultimately to the whole 
notion of performance measurements and ultimately what--you 
know, I spent 15 years in the restaurant business. You learn 
very quickly there two things. One is that there is no margin 
in bickering, and I think this Country as a whole, we just 
don't have the luxury any more of having all these squabbles 
over these issues. We have got to get more quickly and more 
effectively to the final issue. And you also learn that what 
gets measured is what gets done. I think we need to, again, 
have some Federal help there getting some performance 
measurements around things like congestion.
    It does come back to land use. I think that becomes a key 
part of all of this is where does the real benefit come. We can 
get the people that have authority over land use, and that is 
not even just mayors, it is city councils, it is the MPOs 
together making their plans. Make sure that they have some 
funding around that; then you can really make some progress in 
it.
    Mr. Oberstar. Mr. Howard?
    Mr. Howard. Sure. Representative Oberstar, I will answer 
your questions I think in the order that you asked them.
    You talked about the State respecting our TIP process. We 
have got an excellent working relationship with the State of 
Washington and the Washington State DOT, so they are our 
partners at the table. But, that being said, we have got to 
recognize that we make decisions in our region on only about 6 
percent of the Federal dollars that come to our State, and we 
take that role very seriously. That is the congestion 
mitigation, air quality funding a portion of the surface 
transportation program and the transit programs that we 
receive. But 6 percent of the highway dollars are our purview.
    So I think the mayor mentioned earlier the same situation 
in Denver. We focus that money on implementing our plan, but it 
is kind of hard to take responsibility for implementing our 
plan when so few Federal dollars are actually decisions made at 
our regional table.
    The issue about land use, I didn't mention it during my 
introduction but the Puget Sound Regional Council has three 
functions. We are a land use growth planning agency, and that 
function comes from State law through our State's Growth 
Management Act. We are an economic development agency, and we 
are a transportation planning agency. Those three functions fit 
very, very well together.
    Mr. Oberstar. I think they are essential. That is a great 
model we ought to have replicated across the Country.
    Mr. Howard. Right. And my boss, Bob Drewel, has often said 
that where you have got land use and transportation there is an 
economic nexus there, and so you have to treat those three all 
together. So we have tried to integrate our work programs for 
those three areas.
    Our State did adopt a Growth Management Act in 1990, and 
that Growth Management Act did not take land use planning 
authority away from local governments; it kept the authority at 
local governments. It is a bottoms-up process. But it required 
that local plans be consistent with each other and consistent 
with the regional plan that we collaboratively developed. And 
so our role is to develop that collaborative regional plan that 
sets out growth policies for our region, and so decides things 
like population allocations, job allocations, environmental 
policies, and other things like that. And so we are intimately 
involved in the land use transportation linkage.
    Professionally, all transportation planners are engaged in 
the practice of land use planning. Land use drives 
transportation. Transportation, in turn, drives land use. I 
have often said that transportation is a land use, and so 
making transportation decisions is making land use decisions.
    So I think those things have to be very much wedded 
together, and in our State we have found the mechanism to do 
that.
    On project permitting and specifically related to the 
monorail, I know the monorail project was helped because it was 
a one-jurisdiction project, so it was totally contained within 
the City of Seattle. City of Seattle was the permitting 
authority, and it had been approved by the voters of Seattle.
    One of the key things to the monorail project and other 
projects in my experience has been when they are fully funded 
it is pretty easy to proceed. Often what my experience has been 
when projects are not fully funded is when we have delays in 
the process, and so when you don't have the funds identified to 
proceed it is awfully difficult to just shorten that time to 
implementation because you need to find the money.
    So we have had quite a bit of success in working with our 
environmental agencies. We have a group at the regional council 
that we pull together of all the permitting agencies. They sit 
through our planning processes. They review our plans. Our hope 
in doing that is that we can deal with some of the major 
sticking points when you get to a project like secondary and 
cumulative impacts. We can address that early in the planning 
process when it can be addressed and when it is best addressed. 
We have involved them in our land use planning, in our policy 
setting. We have involved them in our transportation planning.
    One of the issues that we do face, though, is that the 
permitting agencies have little time to spend in the planning 
process, and so their focus is and they are staffed to review 
projects and to provide permits, and so it is very difficult 
for them to find the time and the dedication to participate in 
our planning processes.
    Mr. Oberstar. Others? But I have to ask you to compress 
your response because I have gone well beyond eight minutes 
now.
    Mr. Chesley?
    Mr. Chesley. Mr. Chairman, you are very familiar with the 
California process, and in California many of my compatriots 
across the Country would like to have the same kind of 
relationship with our State Department of Transportation that 
we have as an MPO. We provide an excellent model for others. 
Out of the State's capital program, 75 percent of the projects 
are determined by MPOs and regional agencies across the State.
    On the land use side, I have to echo----
    Mr. Oberstar. Then does the State commit the money to the 
plan that you have developed?
    Mr. Chesley. Well, to the extent of the resources 
available, yes.
    Mr. Oberstar. Okay.
    Mr. Chesley. And we have been very successful in making 
that happen.
    On the land use side, we are in the process of trying to 
get up to speed with the Puget Sound and Portland areas on 
that. The Sacramento Area Council of Governments and its 
blueprint process has proven to be the model in California. As 
we move forward with things like Senate Bill 375 dealing with 
greenhouse gas emissions, we are finding more and more State 
authority to become involved in land use decision-making on a 
higher level, not at the level of where the Wal-Mart goes but 
at the level of how we develop growth policies across our 
region for affordable housing and for economic development 
opportunities.
    Mr. Oberstar. And then serve those compact growth policies 
with light rail or commuter rail or rapid bus transit?
    Mr. Chesley. That is right.
    Mr. Oberstar. If you don't do that, then people don't buy 
into the process.
    Mr. Chesley. That is right. In fact, that is the only way 
to be successful in these particular efforts, and that is a 
challenge. I mean, there is no question that is a huge 
challenge for us.
    Mr. Oberstar. In the Sacramento area it certainly is. I see 
that regularly.
    Mr. Chesley. Yes, and that is actually the model that the 
rest of us are using.
    Mr. Oberstar. Mr. Ritzman?
    Mr. Ritzman. Thank you.
    In Pennsylvania we use what's called the Financial Guidance 
Work Group, and as we start to update our STIP, our four-year 
STIP--we do that every two years--we pull a committee together 
comprised of our local Federal highway administration office, a 
couple of our regional district executives, MPO partners, and 
rural planning organization partners, and we look at every 
category of Federal funds, come up with a needs-based formula 
for how to distribute that across our State into the 23 
different regional planning organizations that we use.
    So we have those hard discussions of making people think 
State-wide. We do have a small reserve, 20 percent of the 
highway funds, for our Secretary's discretion. We call those 
spike funds, so that when there is a big project, a big bridge 
in a region, that we can help assist in those projects. This 
last TIP update, all those spike funds went to structurally 
deficient bridges. That is how much in need we are for those 
types of funds.
    Mr. Oberstar. Essentially you have a biennial update?
    Mr. Ritzman. Update, correct, and we go through every 
category of funds and figure out a fair distribution of those 
funds.
    Mr. Oberstar. That is good.
    Mr. Selman?
    Mr. Selman. Thank you, Mr. Chairman.
    Just like my friend here, to the extent the resources are 
available we are respected, the answer there. The other two are 
yes.
    I think the small MPO is the perfect conduit for this type 
of land use and transportation nexus and activity. Our city 
council makes up almost a full majority of our local MPO. They 
are the ones that have land use regulatory authority. The very 
mindset that they are coming to the table with is that: where 
is land use going to be played into a transportation project.
    Mr. Oberstar. Okay. Mr. Pedersen?
    Mr. Pedersen. Thank you, Mr. Chairman.
    If you were to speak to the six MPOs in the State of 
Maryland, I think you would get a response from all of them 
that we have an excellent working relationship in terms of both 
elements to plan and the priorities that we have consensus. The 
issue is lack of resources. Every single one of the six MPOs 
would say that the State does not provide them with enough 
money. Every single one of them would say that other parts of 
the State are unfairly getting too much of the money. So we 
find ourselves in the position of trying to have an unequal 
amount of unhappiness among the various parts of the State.
    In terms of the process to coordinate with land use issues, 
we have some of the strongest State legislation in terms of 
coordination between State and local jurisdictions on land use 
plans. We find we have the decision-making--and this is the 
case in almost every State--being at the local level, that from 
a State level or from the use of Federal funds it really 
becomes what incentives and disincentives you provide in terms 
of transportation funding availability that is made available.
    So, for example, we want to significantly increase transit 
ridership. We have incentive programs for transit-oriented 
development. We make decisions in not making transportation 
improvements outside of planned areas of growth, and we allow 
the congestion to grow in those areas because we don't want to 
be providing incentives for further development to be taking 
place where it is not planned.
    In terms of permit expediting, the key issue from my 
perspective on that is being able to get the engagement of the 
actual decision-makers in the other environmental resource 
agencies at the time that you need them to be involved and to 
be getting timely decisions. Unfortunately, either the lead 
Federal agency, the U.S. Department of Transportation, or the 
State Department of Transportation or implementing agency does 
not have the authority to be getting those decision-makers 
involved and to be making timely decisions. That is where we 
could really be using Congress' help.
    Mr. Oberstar. I invite you, in light of that comment, to 
review the language in the current law, all of you. We are 
making policy decisions for next year right here in this room 
as you speak, so give us your thoughts about how that language 
should be adjusted and improved. If you have had success in 
Maryland, I suspect it is due to Mr. Shiner. Isn't he engaged 
with you?
    Mr. Pedersen. He definitely is in the I-95 Corridor 
Coalition, and we are very fortunate to have him as our 
executive director.
    Mr. Oberstar. He did a brilliant job with the National 
Scenic Byways program. We are grateful eternally to him.
    All right. I want to compress this in maybe a minute and a 
half. Of the interstate, 15 percent is located in urban areas, 
but 50 percent of the vehicle miles traveled on the interstate 
is in urban areas. That is where we have to concentrate effort 
if we are going to unlock the congestion problems.
    Of the $78 billion in congestion cost that the Texas 
Transportation Institute cites in their annual report, 100 
percent of that occurs in the 68 major metropolitan areas of 
this Country. Now, in the SAFETEA-LU legislation I proposed a 
mega projects program where we would allocate something in the 
range of $7 billion to addressing congestion in those areas and 
let the project areas be selected by the Department of 
Transportation.
    Well, by the time we got through conference with the Senate 
that was emasculated. It was cut up and shredded into little 
pieces of what we had. In fact, the money was cut from $7.5 
billion to $3 billion, and then it was divided between the 
House and the Senate, and then it was sub-allocated by Senators 
and House Members until it was all piddled away and there was 
no effect. That is not going to happen next time.
    We have to have like a laser beam on these congestion 
points in the Country. We are going to craft a process by which 
the biggest effort, biggest success, biggest reduction of 
congestion can be done with an entity in a process that doesn't 
involve the House or the Senate or the DOT of the U.S. 
Government or the States, and select those areas and then 
target the money to them and make a really significant impact. 
If we don't, we will have failed this Country. That has to 
involve intermodal and multi-modal and transit and trollies and 
street cars and high-speed rapid bus and adjusting the 
interstate system and incorporating freight transportation 
movement in those areas and deal with it and unlock this 
congestion. And the planning process is foundational portion of 
it.
    We need your best ideas as we go forward to craft the next 
legislation.
    I thank my colleagues for their patience.
    Mr. McNerney. Well, I want to thank the Chairman for coming 
down and participating in this hearing. He has more insight, I 
believe, on this issue than anyone.
    Next I would like to recognize the Ranking Member for his 
questions, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    First of all, Chairman Oberstar said some kind things about 
me, as he has done so often. I will tell you, I have had the 
honor and privilege of serving on this Committee for 20 years, 
but that pales in comparison to his, I think, now 44 years, 
counting his time on the staff.
    I will say this. I doubt there has ever been a Chairman of 
this Committee in the entire history of the Congress that has 
been more knowledgeable and more dedicated, more knowledgeable 
about the work of this Committee and more dedicated to the 
goals and work of this Committee, than Chairman Oberstar. It 
has been a real honor to serve with him.
    I am already running late to meet with a group of military 
families, and so I am not going to be able to ask my questions, 
but I would like to make a few comments.
    I will start out, Mayor Hickenloop, just by saying that my 
father was city law director for three and a half years and 
mayor for six years, and so from the time I was eight until I 
was seventeen I partially grew up at City Hall, and I became 
convinced that being the mayor of a large city is about the 
most difficult job in this Country. We found out that I think, 
at that time--it may have changed now--but we found out that 
everybody and his brother wanted to be a fireman or a 
policeman, and the day after they went on the force they wanted 
a promotion or a raise. I don't know if it is still the same or 
not.
    Are you any relation to the former Senator Hickenloop from 
Iowa?
    Mr. Hickenlooper. Yes. He was my great-uncle.
    Mr. Duncan. Is that right? My mother was from Iowa and 
moved to Tennessee after college.
    I have always said that there is a very legitimate Federal 
interest in the work of this Committee in every aspect, but on 
highways I have used the roads and highways in every one of 
your States and my constituents have, and vice versa. People 
from Colorado and Pennsylvania and Washington State and 
California and Texas and Maryland, they come to Tennessee.
    The staff will be submitting some of my questions, if they 
are not covered later on, but you heard in my opening statement 
one of my questions is how we handle our transportation funding 
when we have two-thirds of the counties in the U.S. losing 
population. I know Mayor Hickenlooper has expressed his 
frustration about insufficient resources and then too little 
input. I assume that he is speaking on behalf of all of the 
mayors who feel that way. But then, by the same token, even the 
people from the rural areas in Colorado come to Denver to shop 
or go to ball games and so forth, so it is fair, I guess, that 
they have some say.
    Mr. Ritzman, we had your governor in here two or three 
months ago, and he was mainly talking about the problem of the 
structurally deficient bridges, and so I would like to know 
what kind of progress you are making on that.
    Mr. Howard, I read all your statements, and this target 
zero thing is certainly a legitimate goal, to have no debts and 
no disabling injuries by the year 2030. I would like to know a 
little bit more about that, what steps you are taking and how 
much progress you have made. My impression is you just sort of 
barely got into that, but boy that would certainly be a great 
goal.
    I was on the Oprah Winfrey show a few years ago because 
they had this expert talking about how we were going to start 
having a crash a week on airplanes, and I was taking the other 
side, and I said, Unfortunately, we have more people killed in 
three and a half months in the Nation's highways than in all of 
the U.S. aviation accidents combined since the Wright Brothers 
flew in 1903. It is an amazing situation. But boy, this goal 
you have got, if we could even come close to it, it would 
really be something.
    I will just stop right there.
    I will say to Mr. Selman, you hit my pet peeve or the thing 
that bothers me the most, and that is these projects take far 
too long. The main runway at the Atlanta Airport took 14 years 
from conception to completion. It took 99 days of construction, 
but they had to get all of those approvals. So in the last 
highway bill we tried to do some environmental streamlining, 
because that is where most of the delays are. I don't know how 
successful we have been on that. Maybe you could submit 
something on that.
    But also another thing that we are hearing about, I have 
never fully understood what is the controversy about this 
trans-Texas corridor. I don't know whether that affects you as 
much, but maybe you could give me some help on that.
    At any rate, I have to run. I appreciate all of the 
testimony I have heard so far. All of you all know a lot more 
about this stuff than I do, but I think and hope that my 
concern about these challenges and problems is as great as 
yours, and I thank each of you for taking time out of your very 
busy schedules to be with us today.
    Thank you very much.
    Mr. McNerney. I want to thank the Ranking Member for his 
thoughtful questions, and I look forward to the answers that 
are produced in accordance.
    Next I would like to recognize my colleague from 
California, Ms. Richardson, who inhabits Long Beach and one of 
the busiest, if not the busiest, ports of our Nation.
    Ms. Richardson?
    Ms. Richardson. Yes. Thank you, Mr. Chairman.
    Mr. Howard, my introduction that just occurred is very 
pertinent to the question that I am going to ask you. I 
represent the two largest ports in this Nation, the Port of 
Long Beach and the Port of Los Angeles, and my question to you 
is, it is my understanding that in Washington there was a 
consideration of a container fee. Given the fact of the 
inability to really fund all of the projects that we have and 
the impact of what goods movement has on our transportation 
corridors, could you share with me in two minutes or less how 
that came about and what you did?
    Mr. Howard. Sure. One of our State legislators, and 
actually a State legislative committee, had proposed a 
container fee on containers within the State that are coming in 
and out of our ports. That was a bit controversial because of 
the competitive position that our ports face with other ports, 
not only L.A./Long Beach but Mexico and Canada. So that was 
studied as a potential funding source, and it is still being 
considered, but not acted on.
    I think the feeling is probably that if this were to be 
done nationally to put all ports on the same footing, that that 
probably would be a much more welcome idea.
    Everybody recognized the need for the funding, because the 
money that that fee would have supported would have funded very 
important freight project.
    Ms. Richardson. Well, Congresswoman Grace Napolitano and 
the Chairman of the Coast Guard and Maritime Committee, Mr. 
Elijah Cummings, and other Members were present at a hearing in 
Los Angeles, and I intend on bringing something forward on that 
matter, myself.
    My second question is for you, Mr. Pedersen. I am sure you 
saw all in the news of what happened in California, the recent 
Metro as well as freight train wreck that we had. I wanted to 
get your thoughts of coming from a local government 
perspective, what are your commuter rail in conjunction with 
freight rail, and also passenger? It is my understanding that 
commuter rail does not come to the same standards that these 
other sections have. What are your thoughts in terms of how you 
cohabitate and what projects effectively need to be done.
    Mr. Pedersen. Maryland is very committed not just to the 
commuter rail system we have, but actually growing it. We have 
MARC. Our commuter rail system is called MARC, a very 
aggressive expansion plan associated with it, as well.
    Our greatest challenges on that, quite frankly, are dealing 
with the private railroads in terms of sharing the track. We 
have had some significant safety issues. We, unfortunately, had 
a very serious crash several years ago just north of 
Washington, D.C. We are constantly working with the private 
railroad companies in terms of the safety issues that we have 
associated with the shared track, as well.
    But it is a huge challenge, and anything that Congress can 
be doing to be helping us in terms of recognizing the priority 
of commuter rail and shared track and safety issues we would 
welcome.
    Ms. Richardson. Thank you, gentlemen. If you could supply 
this Committee with further information on both of those 
issues, I would appreciate it.
    Mr. Chairman, I yield back the balance of my time.
    Mr. McNerney. Thank you, Ms. Richardson.
    Next the Chair will recognize Mr. Coble, the gentleman from 
North Carolina.
    Mr. Coble. Thank you, Mr. Chairman.
    It is good to have you gentlemen with us this morning. Mr. 
Howard, one time I was formally stationed with the Coast Guard 
in Seattle, and I am very high on your city and very high on 
the northwest generally, for that matter. I know the other 
cities represented here are equally favorable, but since I am 
most familiar with the northwest I will examine Mr. Howard.
    I arrived late. You may have already touched on this, Mr. 
Howard, but what are some of the unique challenges getting 
cooperating port and freight movement into a metropolitan 
transportation plan?
    Mr. Howard. Well, we have touched a little bit on some of 
those issues during some of the other testimony, but the 
interaction of the freight local communities is a very large 
issue, and so the idea of the railroads and the freeways that 
pass through local communities, when you get increased volumes 
you get increased impacts, and so there is a lot of concern 
there. We recognize the need to make some of those improvements 
to local systems and to mitigate some of the impacts of freight 
on local communities in order to allow the freight to expand. I 
think that was one of the bigger issues.
    The other is finding money to implement the rail and 
highway projects that are needed to move freight through our 
region.
    Mr. Coble. The gentleman from Tennessee, Mr. Duncan, 
touched on the target zero issue, Mr. Howard. What are some of 
the strategies you are examining to achieve the target zero 
objectives?
    Mr. Howard. We are working with our State Highway Traffic 
Safety Commission on that. Most of the strategies are 
behavioral strategies dealing with speeding, impaired driving, 
youth driving, and other concerns. In our region we have a very 
large pedestrian fatality rate, and so we are doing some 
special work to figure out what we can do to mitigate that. But 
it is focusing attention on where the largest numbers of deaths 
and disabling injuries are coming from.
    Mr. Coble. And, finally, what are some of the funding 
mechanisms that the Puget Sound Regional Council has utilized 
to pay for its transportation infrastructure?
    Mr. Howard. We have a number of sources. Our State 
legislature has stepped up in the last several years with two 
State gas tax increases and funded a number of projects, and so 
we have a lot of State-funded projects that come through the 
gas tax. We have local sales tax which supports our transit 
systems, and we do allocate the surface transportation program 
and congestion mitigation air quality Federal highway dollars 
to priority projects in our plan.
    Mr. Coble. Now, before my time expires, does anyone else 
want to weigh in on either of those issues? Yes, sir?
    Mr. Chesley. The Port of Stockton is the second-largest 
inland seaport on the west coast. One of the challenges that we 
have had in our dealing with port-related planning is that a 
lot of the improvements that are necessary to get a ship to the 
port occur outside of our regional boundaries. They occur in 
the channel. They occur in the San Francisco Bay. They can even 
occur in relationship with the Coast Guard. So the amount of 
input that comes into the Port of Stockton is oftentimes 
something that is outside of our regional transportation 
planning process and something that is hard to recognize and 
quantify.
    We found that to be a bit of a challenge as we have gone 
through looking at improvements to the channel that occur 
outside of our normal purview.
    Mr. Coble. Thank you, sir.
    Yes, sir?
    Mr. Selman. Mr. Chairman, one of the things that we see at 
the Laredo MPO, we deal almost exclusively with the mobility of 
commerce, moving commerce through our community. The rail lines 
bisect some of our most disadvantaged neighborhoods, and yet 
those who live in those neighborhoods receive absolutely zero 
benefit from those rail lines.
    What used to happen in the City of Laredo, if you go back 
20 or even 30 years, although the rail lines have been there 
over 100 years, 20 or 30 years, one or two whistle-blowers 
coming through the neighborhood per day that was maybe a 
quarter-mile long was not that much of a disturbance to the 
neighborhood, even something to be watched and waited on. Now, 
when you have 12, 13, 15 trains coming through the same 
neighborhood, each of them a mile long, it is a huge impact on 
those neighborhoods and the people that live there.
    Again, it is a true EJ issue. They get no benefit and 
receive all the negative impacts.
    Mr. McNerney. Thank you, sir.
    Mr. Selman. Quickly, if I may, the question that was asked 
earlier, what we are seeing--and Mr. Ritzman put this on the 
table, and I think what you are going to see is that local 
entities will end up having to solve projects of national 
significance. We have done that with our weigh and motion 
system on our bridges. We have done that. Right now we are 
looking at adding toll booths to the bridge system in order to 
meet the needs of that commerce coming across the border, 
because we see the impacts. We live them daily. Those trucks 
rumbling through your community impact everything from signal 
timing to neighborhoods to infrastructure, size of pavement. 
From top to bottom, those trucks impact you.
    Mr. Coble. My time has expired. Mr. Chairman, I think Mr. 
Pedersen wanted to raise a question, if you would permit him to 
do that.
    Mr. McNerney. Yes.
    Mr. Pedersen. Speaking for the I-95 Corridor Coalition and 
the rail studies that we have done, in particular, along the 
eastern seaboard the greatest challenge we have right now are 
some very old infrastructure that, if certain critical links 
fail because of their condition, it will have dire 
consequences, and the investment is not being made. We need to 
be looking at that.
    The second largest almost challenge to that is the need to 
be able to accommodate double-stacked rail in some very old 
tunnels, in particular, that are incapable of doing that and 
the capital not being available from private railroads to be 
able to address those issues.
    Mr. Coble. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Mr. McNerney. I thank the gentleman for his participation.
    Next I would like to call on my colleague from New Jersey. 
You are recognized for five minutes.
    Mr. Sires. Thank you, Mr. Chairman. And thank you for being 
here today. As you know, New Jersey is probably one big 
transportation hub.
    I have a question. I would just like to get your opinion if 
you ever dealt with this--the process of design build and 
operate. Do you consider that when you do your planning? And 
what do you think of a concept like that? Mayor, if you could?
    Mr. Hickenlooper. Certainly the concept, design build, has 
a great deal of benefits. When I was in the private sector we 
would consistently use it because it does give you so much more 
time that, even though you don't have quite the same control 
over the contractor, the overall savings again and again are 
proven out.
    We are looking at design build on a larger level with fast 
tracks concept and actually beginning to look at some 
partnership possibilities with one firm designing, building it, 
and then helping be a partner in the operations, as well. We 
believe that there are significant savings there, as well.
    Mr. Sires. Yes?
    Mr. Ritzman. Thank you. In Pennsylvania we have extensive 
experience with the design build, not with the design build 
operate, primarily on the highway side. There are, again, some 
really good financial incentives just having a specific 
designer working with the specific expertise of a certain 
contractor, so that is a real big cost savings, as well as it 
seems to work a whole lot better with an engineer working 
directly for the construction firm rather than a State 
intervening in between.
    Mr. Sires. Mr. Howard, have you had experience with it?
    Mr. Howard. No.
    Mr. Chesley. I would just say ditto to the comments that 
have been made here.
    Mr. Sires. Mr. Selman?
    Mr. Selman. I agree. Ditto.
    Mr. Sires. Okay.
    Mr. Pedersen. If I could just add, another significant 
benefit that we have seen in design build is that we have far 
fewer claims from the construction contractors, and task force 
we end up having more cost certainty when we start out on a 
project. I think that is a significant benefit that we have 
seen.
    We are starting to get into the area of design build 
operate. We do not have a lot of experience with it. The 
biggest reservation associated with it is because of the 
uncertainty looking out over a longer period of time. You end 
up paying for that uncertainty, as opposed to the risk being 
absorbed by the government agency when it is just design build 
rather than design build operate.
    Mr. Sires. Thank you. And I must compliment you. Sometimes 
I drive Union from New Jersey. You are doing a lot of work on 
that 95. I don't know whether it is design build and operate, 
but they're doing a lot of work.
    I was just wondering, when you do your planning--and I am a 
former mayor and former assemblyman--one of the things that we 
always seem to fight, New Jersey Transit and some of the other 
agencies, because when the planning is done they sometimes 
don't take in consideration the local input. We won a big 
battle in the northern part of the county. They wanted bus 
lines.
    Obviously, we are so congested--and I am talking a few 
years ago--we wanted light rail. We finally won. I was just 
wondering, when you encounter such strong local consideration 
that want to be considered, how do you deal with it, because 
those are the things that stop the projects beyond DEP. Those 
are the things that really--you know, the differences on what 
kind of transportation you want to put in order to move people 
in and out of that area.
    Mayor, how do you deal with that?
    Mr. Hickenlooper. Our goal has always been to get everyone 
at the table, and the Department of Transportation has to be at 
the table, as well, but ultimately there has got to be a 
process by which all the constituents are represented and there 
has to be some incentive so that they come quickly to 
conclusions and make the decision.
    The most important thing is sometimes, whether it is one 
decision or another, people can get very heated and emotional, 
but ultimately you have got to make a decision, you have got to 
move forward. That is the biggest cost to not just Denver but I 
think most metropolitan areas is that we end up getting in this 
logjam without clear authority and without a clear enough 
process.
    I think the key to the process, again, Federal Government 
can provide incentives to make sure that everyone does work 
together and that everyone does accelerate their conversations 
to the point and say, This may not be my first choice, but in 
the broader good I am going to go along with this larger 
collaboration.
    Mr. Sires. Pennsylvania?
    Mr. Ritzman. Sure. I think one of the things that is so 
important is to really take time to listen up front, because 
all too often you realize in some projects that you have to 
listen later on what the implications are. But just taking the 
time to listen up front.
    Our Delaware Valley Regional Planning Commission, which is 
five counties from Pennsylvania and five counties from southern 
New Jersey, have collaborated on what's called a Smart 
Transportation Handbook. What that basically is is making sure 
that we really listen to the community voice and understand 
what a transportation problem is we are trying to solve before 
moving forward.
    Mr. Sires. Mr. Chairman, could I have just one more minute?
    I know New Jersey was working with Pennsylvania on direct 
line into New York rail. Where is that at, because I asked your 
governor the other day and he says they are working on it.
    Mr. Ritzman. I would probably stay that, too. I can get 
some better details for you. Those kind of things are just so 
expensive, and there is not a whole lot of optimism on how you 
ultimately try to achieve the actual implementation of those 
kinds of projects. Great, great projects, definitely needed, 
but it is just things that are financially not able to get to 
at this point.
    Mr. Sires. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. McNerney. I thank the gentleman from New Jersey.
    Next I would like to recognize the gentleman from Ohio. 
Mrs. Schmidt, you are recognized for five minutes.
    Mrs. Schmidt. Thank you, Mr. Chairman. I will be brief. I 
only have a couple of questions.
    One is for The Honorable Mayor of Denver, Mayor 
Hickenlooper. I briefly glanced through your testimony, and one 
of the things that you say is that there is a disconnect 
between planning and resource allocation. I think you have 
pointed to the obvious, but how do you think this problem can 
be remedied?
    Mr. Hickenlooper. I would like to see, again, a mode 
neutral calculation in terms of where Federal resources go. If 
we are going to have an MPO going through and making the plans, 
the MPO has to have a significant role in how the Federal 
resources are allocated. It can't all come through the State. 
Obviously, there is a number of expenditures that the State is 
the best decider and able to bring rural counties together in 
an efficient way, but in our metropolitan area they are an 
important voice but they are not the only voice. I think making 
sure that the MPO has a more significant role in how the 
resources are allocated.
    To say that you are going to do a plan and then someone 
else over here is going to fund it, A, what it does is it takes 
authority away from the planning organization. It means they 
don't get the high octane civic leaders and the attention that 
they should gets put off to the side a little bit because 
ultimately the funding comes from this other place. If we could 
connect the planning and the funding together, A, you get a 
better--well, first you get better plans, right, because people 
are paying a lot more attention to it; and, B, you get much 
larger participation, from the State all the way down.
    Mrs. Schmidt. Follow-up to that: I know that in your 
testimony you are the head of the Mayors Association.
    Mr. Hickenlooper. I am the Chair of the U.S. Conference of 
Mayors' Transportation and Communications Committee.
    Mrs. Schmidt. Right. And is this your personal view, or is 
this the view of all of the mayors in your group that reflect 
the United States.
    Mr. Hickenlooper. Well, I am not sure if you have a view of 
all of Congress. It is hard to get everyone all on one page, 
but yes,----
    Mrs. Schmidt. But it is out of your conference? This is 
their----
    Mr. Hickenlooper. Yes, this is out of our conference, so 
this is the position of the mayors. I think that universally, 
again, we respect the State Departments of Transportation, but 
we recognize that there has got to be a shift in terms of how 
that funding comes down to metropolitan areas.
    Mrs. Schmidt. And then this is for the open panel, and it 
is something I am not sure was covered in any of the testimony, 
but one of the things that we are realizing is that there is a 
shortfall in funding for all kinds of transportation issues. Do 
you all have any suggestions towards how to correct that 
shortfall?
    Mr. Hickenlooper. Just very quickly, because I have spoken 
enough, but part of it is the public has to believe. We are not 
making jobs. We are not throwing money at something. We have 
got to be more transparent and more creative, but we have got 
to deliver what people want. Again, this all comes back to that 
planning process.
    I spent 15 years in the restaurant business. I hate taxes. 
I viscerally hate taxes. We have now passed 13 successive 
initiatives, something quite large, because each time we are 
spelling out. They are almost all infrastructure, but we are 
spelling out exactly what we are going to deliver for those 
taxes and looking at it as an investment. I think the reality 
is that we as a Country have to recognize we are falling 
woefully behind, and it is going to affect not just our quality 
of life but our economic future.
    Mrs. Schmidt. Thank you.
    Mr. Chesley. The National Association of Regional Councils 
has taken a position that we are going to need to, at least in 
the short term, address the shortfall in the gas tax through a 
gas tax increase, as well as addressing this through indexing, 
as well. But in the long term this is not the answer to our 
transportation issues. We are going to have to switch over, 
maybe gradually, but switch over to a more user-based system 
that actually closely addresses the actual use of the system 
against what we are actually paying into it, both as 
individuals, corporate interest, whatever. That is going to 
have to be the way we proceed in the future on this.
    Mrs. Schmidt. Yes, sir?
    Mr. Pedersen. I am speaking personally, as opposed to on 
behalf of either the State of Maryland or the I-95 Corridor 
Coalition. I believe, first of all, I agree with my colleague 
that we need to be moving more to a vehicle miles traveled 
basis for taxation, at least of the usage of the roadway 
system, itself. But probably more importantly, the biggest 
challenge we have in front of us is greenhouse gas emissions, 
and we need to be moving to carbon basis for taxation for 
transportation.
    Mrs. Schmidt. Thank you. I don't have any other questions.
    Yes?
    Mr. Selman. It sounds like a brainstorming type question, 
so I will answer it as if I am brainstorming.
    I don't think vehicle registration should be tossed out as 
an option. I don't think drivers license and permitting should 
be tossed out as an option. Fuel tax is something that is a 
little bit harder pill to swallow, given the increase in fuel.
    I just wanted to toss those two out, as well as vehicle 
miles traveled and the technologies that exist for making those 
determinations, sending proposal's bills in the mail in terms 
of their user fees, those types of things.
    Mrs. Schmidt. Thank you. Yes, sir?
    Mr. Ritzman. I guess I will just chime in and agree, but I 
guess the point I want to make is just there are tremendous 
system preservation needs that we have, and part of me says I 
don't care how, we need to be able to deal with not only what 
people want but just the basic infrastructure that we currently 
have and to keep that operating efficiently and safely.
    Mrs. Schmidt. Thank you. And thank you, Mr. Chairman, for 
indulging me in that question.
    Mr. McNerney. I thank the gentlewoman for raising that 
difficult and important question, and for the panel for 
attempting to answer it.
    Next I would like to recognize again my colleague from 
California and a mentor, a good friend Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair. I am sitting, 
listening, getting all kinds of ideas. I have got notes. I have 
got a ton of questions. I won't have the time to ask them all.
    I would like to answer for the record a memo from the 
Alameda Corridor East Construction Authority from my area, as 
well as a Gateway Council of Governments' input into this 
topic.
    I will leave that aside except for one area that they are 
asking that the organizations such as Americas Gateways and 
Trade Corridors, the CAGTC, that they be more recognized and 
heard, because they do know the impact of trade corridors and 
the impact on the communities, themselves.
    Which brings an idea to mind that has been bounding around. 
It has been brought to my attention. That is that the next TEA 
bill should include to establish a Federal Freight Trust Fund 
that is tailored to recognize the unique position of freight or 
goods movement projects in our Country and the burdens they 
create on our local communities.
    Any ideas or recommendations? Let me tell you, I was 
listening to the gentleman that said he has got a number of 
trains. I have 160 daily going through my area, 54 grade 
separations, of which only 20 are going to be grade crossings. 
Only 20 are going to be separated. I have a major impact. So 
while it is wonderful to hear your presentations, I am dealing 
with ten times the amount of impact in my area.
    I understand Mr. Oberstar has a great vision. I am glad he 
is preparing for this. And I agree with Mr. Mica about a mega 
plan. What can we come up with, gentlemen, because I agree. 
Going to the mega areas, to the big metropolitan areas, L.A. 
County has 12 million people. All the money goes there and 
maybe to the State, and we get a little bit to our local areas, 
so the local communities need to be able, the COGs that 
represent--my two COGs represent 60 of L.A. County's 70-some-
odd cities. They have a foundation. Maybe we could start 
putting the money into them because they know what the needs 
are and they can actually be prepared to do like he said, the 
plan and design.
    I would like some information from you about what you think 
about the Federal Trust Fund being set to be able to deal with 
the impact of goods movement. Let me tell you, I have been 
sitting in this Committee for a number of months listening to 
the railroad say they want to move goods but not passengers. 
They make the money on goods movement. Well, guys, they go into 
my area impacting us; I want to be sure they are at the table 
helping my community deal with the congestion, with the safety 
issues, with all of that.
    It is open, gentlemen. Mr. Selman?
    Mr. Selman. I think you are right on target. There is an 
absolute need to move this commerce through this Nation, in 
this Nation, and out of this Nation, and in order for us to 
continue to be very competitive on a worldwide scale, we must 
spend on the movement of commerce.
    Mr. Pedersen. Whether it is a separate Freight Trust Fund 
or a carve-out of the Highway Trust Fund, I would agree that we 
need to be allocating money specifically to be addressing 
freight needs.
    A big concern is how that money gets allocated and what it 
gets allocated to, and there needs to be a performance basis 
associated with allocation of the money so that it is based on 
rational decision-making process in terms of addressing what 
the greatest needs are and, most importantly, where the 
greatest benefit will be achieved.
    Mrs. Napolitano. Anybody else?
    Mr. Howard. Yes, I agree that there probably isn't another 
single more important national issue than moving freight from a 
transportation perspective, and so I think we need to figure 
out how to get those projects funded, and so I think that is a 
definite national interest.
    Mr. Hickenlooper. And I think what you are getting, we in 
Denver and many of the urban areas, the metropolitan areas, the 
old freight yards are now becoming redeveloped and becoming 
very trendy with lots of multi-family housing in them and jobs 
and all this stuff, and yet we have in Denver 110 coal trains 
go through every single day, and they are a mile long. That 
issue of what does it take to get freight so it can go more 
efficiently and also be less of a hazard to our citizens, how 
do we fund that I think is a pressing question, and I support 
your looking into it.
    Mr. Ritzman. And I agree. I think everybody recognizes the 
increasing need for us to focus on goods movement, whether it 
is freight or trucking. I would say the only reservation is 
with regards to, again, where that money comes from and just 
the concern for the scarcity of resources to deal with those 
kinds of projects.
    Mrs. Napolitano. Thank you, gentlemen.
    I didn't add that the freight going through my area is 
expected to triple, so not only is it going to be 160 trains; I 
am going to have close to 500 a day. That means one train every 
ten minutes. Imagine that pollution in your area, that safety 
concern, and those things that you, as directors of all the 
different agencies, would have to deal with.
    Thank you, Mr. Chair. I would like to submit some other 
questions for the record.
    Mr. McNerney. Thank you.
    The Chair now recognizes the gentleman from Pennsylvania, 
Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    I apologize for my late arrival. I just wanted to thank 
each of the witnesses for their written testimony, for my staff 
and me, and also just to share a comment with the fellow 
Pennsylvanian. Mr. Secretary, thanks for being here. I have had 
the pleasure and sometimes the challenge for about 12 years to 
serve as a voting member of my local MPO and appreciate the 
planning process and the four-year TIPS and the balance and 
what's getting on, has come off, what can move in that time 
period, what can't, and realize, especially in challenging 
financial times at the Federal and State and local level, that 
this planning process is not an easy one, and that 
prioritization within that process is sometimes very difficult.
    I don't uniquely speak to Pennsylvania, but we have been 
able to put in place a great, I think, process of our local 
officials, our State officials, and our State Department, Penn-
DOT, working hand-in-hand to try to make that as seamless a 
process as possible. I know in all corners of the Country 
different approaches, but I think we are all after the same end 
result, which is that we are being smart with the resources we 
have and looking long-term for what our needs are going to be 
and how we meet them.
    I appreciate each of you being here today and, most 
importantly, what you do every day in your respective 
positions.
    With the I-95 Corridor and Mr. Pedersen, we are looking to 
try to replicate what you have done on the I-81 corridor. We 
are in the early stages. I know my Deputy Chief of Staff has 
interacted with your organization and members in how to take a 
better regional approach to our 81 corridor as you and others 
have done in I-95, so I appreciate that assistance, as well.
    Thank you, Mr. Chair. I yield back.
    Mr. McNerney. I thank the gentleman from Pennsylvania for 
his brevity.
    Next I would like to recognize Ms. Edwards, the gentlewoman 
from Maryland.
    Ms. Edwards. Thank you, Mr. Chairman. Mr. Pedersen, it is 
good to see you today, too, and all of our witnesses.
    I have the distinction, pleasure, of having sat in traffic 
for 20 years on the Woodrow Wilson Bridge Corridor. I think it 
is a challenge. I mean, these planning processes in 
metropolitan areas, in particular, I mean, we are crossing--
whether we are talking about the D.C. jurisdiction or Virginia 
or Maryland, the challenge of balancing land use decisions that 
are very, very local with how you make investments in 
transportation to accommodate a corridor that stretches from 
Maine down to Florida. So I appreciate the challenge of your 
coalition, Mr. Pedersen.
    I would like to reflect on the planning decisions, say, of 
a decade ago, because I also had been really engaged with our 
local communities in the planning of the Wilson Bridge 
reconstruction and how to relieve both commuter traffic on the 
bridge so that we could actually accommodate the kind of 
commercial traffic that travels I-95. I have been part of those 
processes for ten years, you know, morning, noon, and night 
meetings. I think that when I look back on it I remember the 
folks who argued so vociferously against rail over the Wilson 
Bridge as a way to relieve some of the commuter congestion. 
These are the same folks who today now want rail once we have 
got the bridge up, even though it is rail ready.
    I am curious about what we might do in our planning 
processes, particularly in these metropolitan areas, so that we 
can reflect on some of the process and the decision-making that 
has led to some actually maybe not-so-helpful decisions it 
turns out a decade later, because, for example, in this 
corridor, if we go to add rail, which I would love to do, to 
relieve that traffic, because it continues to be a problem on 
the bridge, it is like starting not from scratch, because it is 
a new bridge and it accommodates rail, but we certainly won't 
do it in the value for dollar that we could have if we had 
engaged in that process at the outset.
    I want to have each of you reflect on ideas in the planning 
process that might alleviate that.
    In addition, I am curious about these new sort of fee 
structures, public-private arrangements for developing 
roadways, railways, etc., and what that means to all of our 
populations, low-income people, moderate-income people who are 
subject to those sort of fee structures, and whether there are 
some fairness questions that are involved.
    I am also curious about incentivizing land use so we can't 
control, at the Federal level, land use decisions locally, but 
are there things that we could do to actually incentivize 
positive land use decisions as they are related to 
transportation and things to de-incentivize the negative uses?
    And then, lastly, I want to know what it is that we can do 
to incentivize also coordinated planning processes, because the 
competition among jurisdictions is so significant that if there 
is not anything that we might encourage at the national level 
to encourage coordination, then there is little to be gained 
from some jurisdictions in doing that.
    I know I have thrown out a lot of questions, and we can 
answer them on or off the record, but over these next several 
months it would be good to hear from you on these.
    Mr. Pedersen. If I could go first, particularly since I was 
involved in the Woodrow Wilson Bridge planning since 1989 along 
with you, reflecting back on looking at it from 2008, how we 
should have done it differently, we did not do nearly enough 
joint land use transportation planning right from the very 
beginning, in terms of looking at the kind of transit-oriented 
development that should have been taking place within the 
corridor to ultimately be able to support the transit line that 
we all want ultimately to be on the bridge.
    I think it is only now that some of that land use 
coordination is actually starting to occur that probably should 
have been occurring as long as 20 years ago.
    So the requirement of, as projects are being developed, 
looking at especially multi-modal projects of the type that we 
are talking about, what needs to occur from a land use 
perspective to be able to ultimately support transit is key.
    In terms of fairness of public/private partnerships, 
private financing, I think it is an issue that needs to be very 
carefully looked at on a case-by-case basis. There are studies 
that have shown that in some corridors the usage of facilities 
that have been funded that way have been across the socio-
economic perspective. There have been other corridors where 
transit has been subsidized in order to address the fairness 
issues, but it is clearly an issue that has to be looked at as 
these proposals come in.
    In terms of incentivizing land use, using the Maryland 
example----
    Mr. McNerney. If I could interrupt, votes have been called 
and we have eight minutes, so please, witnesses, make brief 
remarks. Thank you.
    Mr. Pedersen. I would just very quickly say that, again, to 
the extent that there can be incentives, particularly for 
transit oriented development, that is probably going to be the 
single best mechanism by which we can be increasing transit 
usage.
    Thank you very much.
    Mr. Chesley. I am not sure about the bridge in question 
here, but one of the questions with multi-modal options in a 
corridor is just what the mayor has been talking about here, 
and that is the strictures that tend to come about because of 
different funding sources relating to different modal 
activities. We can reduce some of those barriers, we can reduce 
some of the impediments to being more innovative in terms of 
putting two modes together, three modes together in a similar 
corridor.
    There actually is some pretty good research out there about 
the impact of fees on low-income individuals. I turn to the San 
Diego experience with the congestion corridor down there, where 
the primary use of paying the fee on the corridor has been 
among parents trying to get home quickly enough for day care 
purposes. That is where we see actually the value of time being 
expressed in terms of folks who may not be as high-income as 
some of the folks we normally would think about.
    I will save the rest of the time for comments from the 
other Members. Thank you.
    Mr. Hickenlooper. You know, if I could just say quickly, we 
haven't talked much about TODs, but in terms of the mistakes we 
made in the past we need more elected officials like yourself 
that have been through the process to come up and make sure 
that we keep those and be transparent about our failures as 
well as the successes. There should be some way of 
memorializing. I am not sure how that would work.
    But TODs, if we get everybody as part of this planning 
process looking at how to utilize in a really comprehensive and 
integrated land use planning approach around these new 
stations. Our fast tracks system in Denver, we are putting 57 
new stations in, roughly over half of them are in old 
brownfields sites here we can really change the density. That 
is where we need to be talking about affordable housing, making 
sure that everybody has access to this incredible investment we 
are making.
    Anyway, I want to thank all of you for the chance to be 
here, and look forward to working with you in the next year 
with all the mayors and with all Congress to make sure we get 
some of these things fixed.
    Mr. McNerney. Does the gentlewoman yield?
    Ms. Edwards. Yes.
    Mr. McNerney. Well, I want to thank the witnesses. It has 
been instructive. I know it takes a lot for you to come out 
here, and I appreciate that.
    Members have 30 legislative days to revise and extend their 
remarks, including questions which may be submitted to the 
witnesses.
    This hearing is now adjourned.
    [Whereupon, at 12:00 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 45109.008
    
    [GRAPHIC] [TIFF OMITTED] 45109.009
    
    [GRAPHIC] [TIFF OMITTED] 45109.010
    
    [GRAPHIC] [TIFF OMITTED] 45109.011
    
    [GRAPHIC] [TIFF OMITTED] 45109.012
    
    [GRAPHIC] [TIFF OMITTED] 45109.013
    
    [GRAPHIC] [TIFF OMITTED] 45109.014
    
    [GRAPHIC] [TIFF OMITTED] 45109.015
    
    [GRAPHIC] [TIFF OMITTED] 45109.016
    
    [GRAPHIC] [TIFF OMITTED] 45109.017
    
    [GRAPHIC] [TIFF OMITTED] 45109.018
    
    [GRAPHIC] [TIFF OMITTED] 45109.019
    
    [GRAPHIC] [TIFF OMITTED] 45109.020
    
    [GRAPHIC] [TIFF OMITTED] 45109.021
    
    [GRAPHIC] [TIFF OMITTED] 45109.022
    
    [GRAPHIC] [TIFF OMITTED] 45109.023
    
    [GRAPHIC] [TIFF OMITTED] 45109.024
    
    [GRAPHIC] [TIFF OMITTED] 45109.025
    
    [GRAPHIC] [TIFF OMITTED] 45109.026
    
    [GRAPHIC] [TIFF OMITTED] 45109.027
    
    [GRAPHIC] [TIFF OMITTED] 45109.028
    
    [GRAPHIC] [TIFF OMITTED] 45109.029
    
    [GRAPHIC] [TIFF OMITTED] 45109.030
    
    [GRAPHIC] [TIFF OMITTED] 45109.031
    
    [GRAPHIC] [TIFF OMITTED] 45109.032
    
    [GRAPHIC] [TIFF OMITTED] 45109.033
    
    [GRAPHIC] [TIFF OMITTED] 45109.034
    
    [GRAPHIC] [TIFF OMITTED] 45109.035
    
    [GRAPHIC] [TIFF OMITTED] 45109.036
    
    [GRAPHIC] [TIFF OMITTED] 45109.037
    
    [GRAPHIC] [TIFF OMITTED] 45109.038
    
    [GRAPHIC] [TIFF OMITTED] 45109.039
    
    [GRAPHIC] [TIFF OMITTED] 45109.040
    
    [GRAPHIC] [TIFF OMITTED] 45109.041
    
    [GRAPHIC] [TIFF OMITTED] 45109.042
    
    [GRAPHIC] [TIFF OMITTED] 45109.043
    
    [GRAPHIC] [TIFF OMITTED] 45109.044
    
    [GRAPHIC] [TIFF OMITTED] 45109.045
    
    [GRAPHIC] [TIFF OMITTED] 45109.046
    
    [GRAPHIC] [TIFF OMITTED] 45109.047
    
    [GRAPHIC] [TIFF OMITTED] 45109.048
    
    [GRAPHIC] [TIFF OMITTED] 45109.049
    
    [GRAPHIC] [TIFF OMITTED] 45109.050
    
    [GRAPHIC] [TIFF OMITTED] 45109.051
    
    [GRAPHIC] [TIFF OMITTED] 45109.052
    
    [GRAPHIC] [TIFF OMITTED] 45109.053
    
    [GRAPHIC] [TIFF OMITTED] 45109.054
    
    [GRAPHIC] [TIFF OMITTED] 45109.055
    
    [GRAPHIC] [TIFF OMITTED] 45109.056
    
    [GRAPHIC] [TIFF OMITTED] 45109.057
    
    [GRAPHIC] [TIFF OMITTED] 45109.058
    
    [GRAPHIC] [TIFF OMITTED] 45109.059
    
    [GRAPHIC] [TIFF OMITTED] 45109.060
    
    [GRAPHIC] [TIFF OMITTED] 45109.061
    
    [GRAPHIC] [TIFF OMITTED] 45109.062
    
    [GRAPHIC] [TIFF OMITTED] 45109.063
    
    [GRAPHIC] [TIFF OMITTED] 45109.064
    
    [GRAPHIC] [TIFF OMITTED] 45109.065
    
    [GRAPHIC] [TIFF OMITTED] 45109.066
    
    [GRAPHIC] [TIFF OMITTED] 45109.067
    
    [GRAPHIC] [TIFF OMITTED] 45109.068
    
    [GRAPHIC] [TIFF OMITTED] 45109.069
    
    [GRAPHIC] [TIFF OMITTED] 45109.070
    
    [GRAPHIC] [TIFF OMITTED] 45109.071
    
    [GRAPHIC] [TIFF OMITTED] 45109.072
    
    [GRAPHIC] [TIFF OMITTED] 45109.073
    
    [GRAPHIC] [TIFF OMITTED] 45109.074
    
    [GRAPHIC] [TIFF OMITTED] 45109.075
    
    [GRAPHIC] [TIFF OMITTED] 45109.076
    
    [GRAPHIC] [TIFF OMITTED] 45109.077
    
    [GRAPHIC] [TIFF OMITTED] 45109.078
    
    [GRAPHIC] [TIFF OMITTED] 45109.079
    
    [GRAPHIC] [TIFF OMITTED] 45109.080
    
    [GRAPHIC] [TIFF OMITTED] 45109.081
    
    [GRAPHIC] [TIFF OMITTED] 45109.082
    
    [GRAPHIC] [TIFF OMITTED] 45109.083
    
    [GRAPHIC] [TIFF OMITTED] 45109.084
    
    [GRAPHIC] [TIFF OMITTED] 45109.085
    
    [GRAPHIC] [TIFF OMITTED] 45109.086
    
    [GRAPHIC] [TIFF OMITTED] 45109.087
    
    [GRAPHIC] [TIFF OMITTED] 45109.088
    
    [GRAPHIC] [TIFF OMITTED] 45109.089
    
    [GRAPHIC] [TIFF OMITTED] 45109.090
    
    [GRAPHIC] [TIFF OMITTED] 45109.091
    
    [GRAPHIC] [TIFF OMITTED] 45109.092
    
    [GRAPHIC] [TIFF OMITTED] 45109.093
    
    [GRAPHIC] [TIFF OMITTED] 45109.094
    
    [GRAPHIC] [TIFF OMITTED] 45109.095
    
    [GRAPHIC] [TIFF OMITTED] 45109.096
    
    [GRAPHIC] [TIFF OMITTED] 45109.097
    
    [GRAPHIC] [TIFF OMITTED] 45109.098
    
    [GRAPHIC] [TIFF OMITTED] 45109.099
    
    [GRAPHIC] [TIFF OMITTED] 45109.100
    
    [GRAPHIC] [TIFF OMITTED] 45109.101
    
    [GRAPHIC] [TIFF OMITTED] 45109.102
    
    [GRAPHIC] [TIFF OMITTED] 45109.103
    
    [GRAPHIC] [TIFF OMITTED] 45109.104
    
    [GRAPHIC] [TIFF OMITTED] 45109.105
    
    [GRAPHIC] [TIFF OMITTED] 45109.106
    
    [GRAPHIC] [TIFF OMITTED] 45109.107
    
    [GRAPHIC] [TIFF OMITTED] 45109.108
    
    [GRAPHIC] [TIFF OMITTED] 45109.109
    
    [GRAPHIC] [TIFF OMITTED] 45109.110
    
    [GRAPHIC] [TIFF OMITTED] 45109.111
    
    [GRAPHIC] [TIFF OMITTED] 45109.112
    
    [GRAPHIC] [TIFF OMITTED] 45109.113
    
    [GRAPHIC] [TIFF OMITTED] 45109.114
    
    [GRAPHIC] [TIFF OMITTED] 45109.115
    
    [GRAPHIC] [TIFF OMITTED] 45109.116
    
    [GRAPHIC] [TIFF OMITTED] 45109.117
    
    [GRAPHIC] [TIFF OMITTED] 45109.118
    
    [GRAPHIC] [TIFF OMITTED] 45109.119
    
    [GRAPHIC] [TIFF OMITTED] 45109.120
    
    [GRAPHIC] [TIFF OMITTED] 45109.121
    
    [GRAPHIC] [TIFF OMITTED] 45109.122
    
    [GRAPHIC] [TIFF OMITTED] 45109.123
    
    [GRAPHIC] [TIFF OMITTED] 45109.124
    
    [GRAPHIC] [TIFF OMITTED] 45109.125
    
    [GRAPHIC] [TIFF OMITTED] 45109.126
    
    [GRAPHIC] [TIFF OMITTED] 45109.127
    
    [GRAPHIC] [TIFF OMITTED] 45109.128
    
    [GRAPHIC] [TIFF OMITTED] 45109.129
    
    [GRAPHIC] [TIFF OMITTED] 45109.130
    
    [GRAPHIC] [TIFF OMITTED] 45109.131
    
    [GRAPHIC] [TIFF OMITTED] 45109.132
    
    [GRAPHIC] [TIFF OMITTED] 45109.133
    
    [GRAPHIC] [TIFF OMITTED] 45109.134
    
    [GRAPHIC] [TIFF OMITTED] 45109.135
    
    [GRAPHIC] [TIFF OMITTED] 45109.136
    
    [GRAPHIC] [TIFF OMITTED] 45109.137
    
    [GRAPHIC] [TIFF OMITTED] 45109.138
    
    [GRAPHIC] [TIFF OMITTED] 45109.139
    
    [GRAPHIC] [TIFF OMITTED] 45109.140
    
    [GRAPHIC] [TIFF OMITTED] 45109.141
    
    [GRAPHIC] [TIFF OMITTED] 45109.142
    
    [GRAPHIC] [TIFF OMITTED] 45109.143
    
    [GRAPHIC] [TIFF OMITTED] 45109.144
    
    [GRAPHIC] [TIFF OMITTED] 45109.145
    
    [GRAPHIC] [TIFF OMITTED] 45109.146
    
    [GRAPHIC] [TIFF OMITTED] 45109.147
    
    [GRAPHIC] [TIFF OMITTED] 45109.148
    
    [GRAPHIC] [TIFF OMITTED] 45109.149
    
    [GRAPHIC] [TIFF OMITTED] 45109.150
    
    [GRAPHIC] [TIFF OMITTED] 45109.151
    
    [GRAPHIC] [TIFF OMITTED] 45109.152
    
    [GRAPHIC] [TIFF OMITTED] 45109.153
    
    [GRAPHIC] [TIFF OMITTED] 45109.154
    
    [GRAPHIC] [TIFF OMITTED] 45109.155
    
    [GRAPHIC] [TIFF OMITTED] 45109.156
    
    [GRAPHIC] [TIFF OMITTED] 45109.157
    
    [GRAPHIC] [TIFF OMITTED] 45109.158
    
    [GRAPHIC] [TIFF OMITTED] 45109.159
    
                                    

</pre></body></html>
